                           Incurred Cost Audit for
                              Fiscal Year 2000

                                 March 2005

                     Reference Number: 2005-1C-034




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            March 7, 2005


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Incurred Cost Audit for Fiscal Year 2000
                              (Audit #20051C0207)


       The Defense Contract Audit Agency (DCAA) examined the Civil Division’s
       April 24, 2001, certified final indirect cost rate proposal and December 13, 2002, revised
       cost of money factors proposal and related books and records for reimbursement of
       Fiscal Year 2000 incurred costs. The purpose of the examination was to determine the
       allowability and allocability of direct and indirect costs and cost of money factors. The
       examination was also used to establish audit-determined indirect cost rates and cost of
       money factors for the fiscal year ended March 31, 2000.
       The DCAA questioned $46,490 of executive compensation and $198,626 in
       Interdivisional Work Order labor, travel, and relocation costs directly related to IRS
       contract TIRNO-99-D-0001. In a previous audit, the Treasury Inspector General for Tax
       Administration (TIGTA) noted similar issues when it performed a limited sample of direct
       charges on contractor invoices and identified direct charges for which neither the
       Internal Revenue Service nor the contractor provided any supporting documentation,
       the supporting documentation did not adequately support the charge, or the charge was
       unallowable.
       The DCAA reclassified $2,396,420 in residual expenses from the material handling pool
       to the General and Administrative (G&A) pool. The DCAA also reduced the contractor’s
       claimed G&A base by $4,933,785 as a result of the reclassification of material handling
       expenses and because the contractor included subcontract costs in the G&A base in
       noncompliance with Cost Accounting Standards (CAS). Additionally, the DCAA
                                           2

reduced the contractor’s claimed material handling base by $1,101,159 because the
contractor included technical publication costs in the material handling base in
noncompliance with CAS. The DCAA also classified $6,006,721 as unresolved costs
because the results of the assist audits have not been received. Therefore, the DCAA
qualified the results of the audit to the extent that subcontract audits may disclose
additional questioned costs.
The DCAA stated that the contractor’s proposed indirect rates are acceptable as
adjusted by its examination. Additionally, the DCAA stated that the contractor’s claimed
direct costs, except for the qualification noted above and the potential impact on the
audit results, are acceptable as adjusted by its examination. Direct costs not
questioned are provisionally accepted pending final acceptance.
The information in this report should not be used for purposes other than those intended
without prior consultation with the TIGTA regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
